            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
           STATE OF MAINE
     FOR THE FISCAL YEAR ENDED
             JUNE 30, 2001

     December 2002   A-77-03-00005




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      SOCIAL SECURITY
MEMORANDUM

Date:   December 12, 2002                                                    Refer To:

To:     Candace Skurnik
        Acting Director
        Management Analysis and Audit Program Support Staff

From:   Assistant Inspector General
         for Audit

Subject:   Management Advisory Report: Single Audit of the State of Maine for the Fiscal Year
           Ended June 30, 2001 (A-77-03-00005)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Maine for the Fiscal Year ended June 30, 2001. Our objective was
        to report internal control weaknesses, noncompliance issues, and unallowable costs
        identified in the single audit to SSA for resolution action.

        The Maine State Auditor performed the audit. The Department of Health and Human
        Services’ (HHS) desk review concluded that the audit met Federal requirements. In
        reporting the results of the single audit, we relied entirely on the internal control and
        compliance work performed by the State Auditor and the reviews performed by HHS.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Maine Disability Determination Services (DDS) performs disability determinations
        under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
        reimbursed for 100 percent of allowable costs. The Department of Human Services
        (DHS) is the Maine DDS parent agency.
Page 2 - Candace Skurnik

DHS was not in compliance with the Cash Management Improvement Act (CMIA)
agreement. Specifically, DHS did not follow the average clearance pattern method
when drawing Federal funds (see Attachment A). DHS’ corrective action plan indicates
that a meeting was held to review draw down methodologies and make adjustments as
needed.

We recommend SSA ensure the DHS has implemented procedures for DDS draws of
Federal funds in accordance with the clearance patterns established in the CMIA
agreement.

The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. We bring these matters to your
attention as they represent potentially serious service delivery and financial control
problems for the Agency (see Attachment B).

·   Internal controls were not adequate to ensure complete and accurate recording of
    fixed assets.

·   Controls and procedures were not in place to record and disclose operating lease
    transactions.

·   Quarterly financial reports were not reconciled to accounting records.

·   Payroll costs were charged to the wrong Federal program.

·   Costs were submitted for reimbursement twice.

·   Policies and procedures were inadequate to ensure contracts were not awarded to
    debarred or suspended parties.

·   Controls were inadequate to ensure complete and accurate reporting for the
    Schedules of Expenditures of Federal Awards.

·   The time between the receipt and disbursement of Federal funds was not minimized.

·   Documentation was not adequate to support salary expenditures.

·   Controls were not in place to ensure cost allocations plans contained accurate
    financial information.

·   Internal controls were inadequate to ensure compliance with the CMIA agreement.
                                                                       Attachment A
                                                                         Page 1 of 4


Please send copies of the final Audit Clearance Document to Mark Bailey in
Kansas City and Paul Wood in Baltimore. If you have questions contact Mark Bailey
at (816) 936-5591.




                                       Steven L. Schaeffer

Attachments
                                                                              Attachment A
                                                                                Page 2 of 4


Department of Human Services

(01-47) Division of Financial Services


Various
CFDA#: Various                                                 Questioned Cost: None

U.S. Department of Agriculture
U.S. Department of Health and Human Services
Social Security Administration
Federal Award Number: Various

Finding: Procedures do not ensure compliance with the Cash Management Improvement Act
(Prior Year Finding)

The Division of Financial Services of the Department of Human Services is not in compliance
with the written agreement between the State and the U. S. Secretary of the Treasury that
implements the Cash Management Improvement Act.

We tested eight programs for which compliance with the Act was material to the program. Two,
Medicaid and Childhood Immunization Grants, were found to be in compliance. The remainder
listed below either did not comply or documentation was insufficient for us to determine
compliance.

       CFDA#              Grant Name
       10.557             Supplemental Food Program for Women, Infants and Children
       93.558             Temporary Assistance to Needy Families (TANF)
       93.575 & 93.596    Child Care and Development Block Grant
       93.658             Foster Care IV-E
       93.667             Social Services Block Grant
       96.001             Social Security Disability Insurance

In addition, we relied on previous year audit testing for two programs that were in
noncompliance in the prior year and that saw no change as of the end of this fiscal year:

• Child and Adult Care Food Program, CFDA 10.558
• State Administrative Matching Grants for Food Stamps Program, CFDA 10.561

We noted the following four types of noncompliance:
                                                                              Attachment A
                                                                                Page 3 of 4


                         Department of Human Services

1) Title 31 CFR Section 205.17 (e) requires a State to maintain records supporting the
   implementation of the Cash Management Improvement Act The Division of Financial
   Services did not maintain adequate records to support drawdown amounts for the
   following four programs:

       §   State Administrative Matching Grants for Food Stamps Program
       §   Temporary Assistance to Needy Families
       §   Child Care and Development Block Grant
       §   Social Services Block Grant

2) The Cash Management Improvement Act Agreement establishes provisions for
   individual programs to draw federal funds. Although the State's methods did not comply
   with the Agreement, it did not hold excess federal funds. The following programs did
   not comply with the funding technique assigned:

       §   Temporary Assistance to Needy Families
           The Agreement states that payments to clients are to be drawn using an average
           clearance pattern of two days. The Department deposited funds for payments to
           clients 2-28 days after the corresponding payments to clients.

      §    Child Care Developmental Block Grant
           All administrative costs are to be drawn biweekly for deposit on the average day
           of clearance for the State payroll (two days after payroll). Instead, the State has
           been drawing down funds seven days after payroll.

      §    Foster Care
           Direct administrative funds are to be drawn biweekly for deposit on the average
           day of clearance for the State payroll. Indirect costs are to be drawn once per
           quarter by applying an approved indirect cost rate to the direct costs of the
           previous quarter. Instead, the State has drawn funds by calculating the adjusted
           deficit balance in the accounting system.

      §    Social Security Disability Insurance
           The Agreement states that payments to Service Providers are to be drawn using an
           average clearance pattern of four days. The Department deposited funds 5-35 days
           after having made the corresponding payments to service providers.

3) The Department did not minimize time elapsed between the drawdown of federal funds
   and the expenditure of those funds for the following programs:

           ·   Supplemental Food Program for Women, Infants and Children
                                                                                 Attachment A
                                                                                   Page 4 of 4


                            Department of Human Services
              The Agreement states that the State shall request funds such that they are
              deposited in a State account not more than two days prior to the day the State
              makes a disbursement to vendors. The Department had excess cash on hand for
              fiscal year 2001. The average daily cash on hand for the year was $353,015 and
              the 3-day average of disbursements for the year was $120,041.

          ·   Temporary Assistance to Needy Families

              Direct administrative funds are to be drawn biweekly for deposit on the average
              day of clearance for the State payroll. Cash draws for direct administrative costs
              of the TANF program were deposited into the State's bank account before the
              average day of clearance for 5 of 23 drawdowns.

          ·   Child and Adult Care Food Program

              The CMIA Agreement requires that federal cash be deposited in a State account
              no more than four days prior to disbursement. Testing revealed items deposited
              from six to ten days earlier than disbursement. Note: The 2001 CMIA Agreement
              was amended for this program to extend the time allowed from two days to four.

    4) For the Food Stamps program, the Department could not substantiate how the amounts
       of two drawdowns tested were determined and had no process in place to draw funds on
       the approved basis. The Cash Management Improvement Act Agreement requires that
       1/6 or 1/7 of the quarterly grant award for administrative costs be drawn biweekly.

Recommendation:

We recommend that the Division of Financial Services of the Department of Human Services,
establish and implement procedures to ensure compliance with the Cash Management
Improvement Act Agreement. In addition, we recommend that the Department contact the State
Treasurer to revise the State Treasury Agreement so that its actual practice will be consistent
with the agreed procedures.

Auditee Response/Corrective Action Plan:

Contact Person: John Mower
                                                                                  Attachment A
                                                                                    Page 5 of 4


                             Department of Human Services
The Department of Human Services did not always comply with the draw down methodologies
outlined for the various federal programs in the CMIA agreement. Occasionally funds were
drawn down as needed (pre-issuance). Federal Obligations were not to be held until the next
scheduled draw down. Plus, staff; who draw down cash and the Account Managers who account
for these federal programs were not aware of the many different draw down methodologies for
each grant. Three things have occurred to correct this sometime during the 1st quarter of FY 02.
l.) A meeting was held with the Financial Services staff responsible for draw downs to go over
the CMIA Agreement and make sure they have an understanding of the different methods. 2.)
Some invoice processing like Adult and Child Care Food Program and WIC obligations are
scheduled on a certain days instead at random. And 3.) I meet with the Deputy State Treasurer
annually before the next CMIA Agreement is to be finalized to go over our draw down
methodologies and see if they still fit the cash flow needs of the program and make adjustments
as needed.

(01-48) Division of Financial Services

CFDA#: Various                                             Questioned Cost: $1,290,881

U.S. Department of Agriculture
U.S. Department of Health and Human Services
Federal Award Number: Various

Finding: Costs charged twice, cost allocation plan errors not detected (Prior Year Finding)

Controls at the Department of Human Services are inadequate to ensure accurate financial
reporting of federal grant award expenditures. The Department included certain expenditures as
both direct program costs and as costs to be allocated through its departmental cost allocation
plan. As a result, the Department overcharged the federal government $1,290,881 and overstated
expenditures by the same amount in State fiscal year 2001. Of the thirteen Federal programs
tested, we identified duplicate charges in the following three programs:

       CFDA #         Program Name                          Amount
       10.561         Food Stamps                           $496,063
       93.658         Foster Care                               4,973
       93.667         Social Services Block Grant             789,845
                                                          $1, 290,881
                                                                                  Attachment B
                                                                                  Page 1 of 20


                       STATE OF MAINE
         SCHEDULE OF FINDINGS AND QUESTIONED COSTS
              FOR THE YEAR ENDED JUNE 30, 2001

                         Section II - Financial Statement Findings

               Department of Administrative and Financial Services

(01-01) Bureau of Accounts and Control

Finding: Inadequate controls to ensure complete and accurate recording of general fixed assets

The Bureau of Accounts and Control did not sufficiently monitor agencies for compliance with
fixed asset internal control policies that are designed to ensure complete and accurate recording
of the State of Maine's fixed assets. General Fixed Assets Account Group records included
duplicate entries, assets that were sold but not deleted from the system, and valuations for which
supporting documentation could not be produced. In addition, construction in progress was not
included. The identified errors were corrected on the financial statements.

Title S MRSA § 1541 requires the Bureau of Accounts and Control to maintain an official
statewide system for fixed assets for all State agencies to update and reconcile annually.

The Bureau of Accounts and Control fixed asset policy manual requires agencies to:
1. develop internal policies and procedures,
2. designate a property officer or officers,
3. conduct physical inventories annually or tri-annually for distributed assets,
4. document the inventory program and have it approved by, the Bureau of Accounts and
   Control,
5. develop written inventory instructions and properly train employees participating in
   inventories,
6. reconcile inventory counts with the records in the fixed asset system,
7. maintain written certification by the property officer of the inventory and reconciliation, and
8. maintain supporting documentation of fixed asset transactions for examination by appropriate
   audit organizations.

Recommendation:

We recommend that the Bureau of Accounts and Control monitor and provide clear guidance to
agencies to ensure compliance with fixed asset internal control policies and to ensure that the
recorded amounts appear reasonable. We also recommend that each agency follow the internal
control policies established in the fixed asset manual.
                                                                                    Attachment B
                                                                                    Page 2 of 20


          Department of Administrative and Financial Services
Auditee Response/Corrective Action Plan:

Contact Person: Carol F. Whitney, 626-8421

Clear guidance is given to agencies via the Fixed Assets Policy Manual (last updated 1/10/02)
distributed to each Agency's Property Officer and in electronic format on the Bureau's home
page. A Bureau Senior Accountant is assigned active oversight of Fixed Assets policy
compliance. Within the Finding's list of activities, the Bureau accountant is responsible for 2,5,7,
and 8, with assistance offered for 6.

It is the intent of Bureau management to maintain Agency compliance as stated in State Audit's
Recommendation section.

(01-02) Bureau of Accounts and Control
        Division of Financial and Personnel Services
        Bureau of General Services

Finding: Inadequate internal control over identification, classification, and reporting of lease
transactions (Prior Year Finding)

The State of Maine did not identify, classify, and report lease transactions in accordance with the
Financial Accounting Standards Board's Statement of Financial Accounting Standards No. 13,
Accounting for Leases.

Capital lease assets, the related accumulated depreciation and obligations under capital leases
were recorded in the State's financial statements and related information was included in the
notes to the financial statements. However, there were errors and inconsistencies in determining
valuations that resulted in a qualification to the audit opinion.

The Division of Financial and Personnel Services and the Bureau of General Services are
currently working on a project to evaluate the leases recorded in an Internal Service Fund. The
Bureau of Accounts and Control requires each agency to report any significant leasing
transactions.

Recommendation:

We recommend that the State continue to refine control and review procedures used to record
and disclose capital and operating lease transactions.
                                                                                  Attachment B
                                                                                  Page 3 of 20


           Department of Administrative and Finance Services
Auditee Response/Corrective Action Plan:

Contact Person: Kirsten Figueroa. 624-7413

We agree with the recommendation to refine control and review procedures used to record and
disclose capital and operating lease transactions.

DFPS has created and is using a database that automates the management, classification,
accounting, and billing of the Lease Property Fund. This database has helped tremendously to
organize data in a way that helps us evaluate which leases are capital and which are operating.
Once that determination is made, we then record the leases appropriately on the financial
statements. It should be noted that DFPS does report all leasing arrangements. There has been
confusion in the Bureau of General Services Real Property Leasing Program regarding the
proper application of GAAP .instructions, particularly in the area of Fair Market Value.
Because Fair Market Value is such a critical factor in determining whether a lease is capital or
operating, it is important that these values be accurate. DFPS has taken on the task to reevaluate
the Fair Market Values assigned by BGS for all current lease arrangements. This work is
currently being conducted and it is our intention to finish the work in time for the Fiscal Year
2002 audit.

Work on this database is ongoing. As we understand the GAAP instructions better, we improve
the database. We expect to be in compliance for the FY02 audit.
                                                                                  Attachment B
                                                                                  Page 4 of 20


                          Department of Human Services
DHS concurs with the recommendations of the above finding. The Department currently
conducts an annual reconciliation for the TANF Block Grant at the close of the Federal grant
year. Adjustments were made accordingly based on the annual reconciliation. The annual
reconciliation is based upon the federal grant year not the state fiscal year. The Department will
reconcile cumulative expenditure amounts on a quarterly basis instead of annually.

The Child Care Development Block Grant receives revenue transfers from the TANF Block
Grant. The department will create a procedure to ensure that the reported transfers for CCDF
will be based upon the actual expenditures.

DHS does not concur with the finding of overstated State Maintenance of Effort. Audit posted
MOE in the amount of $997,535 in the transportation category. MOE was reported correctly for
Transportation 9-00 in the amount of $14,942.

DHS also informed Audit that annual reconciliation was in progress at the time of the Audit.
$300,000 for PAS Child Care had been corrected as well as $1,302,091 for Systems. These
corrections were made to September 2001 Final SF269 for TANF Block Grant.

DHS concurs that there may have been $151,857 in overstated Maintenance of Effort that had
not been reconciled as of the audit date but has since been reconciled.



(01-22) Bureau of Child and Family Services


Child Care Development Block Grant
CFDA#: 93.575 & 93.596                                             Questioned Cost: None

U.S. Department of Health and Human Services
Federal Award Number: G001MECCDF

Finding: Inaccurate federal financial reporting (Prior Year Finding)

The Department of Human Services did not have adequate documentation to support Child Care
Development Block Grant financial reports. It did not reconcile accounting records with
quarterly financial reports and did not retain the detail behind matching, level of effort and
earmarking expenditures that were reported.
                                                                                 Attachment B
                                                                                 Page 5 of 20


                         Department of Human Services
For the federal grant period 2001, we compared the reported amounts to the State's accounting
system and found the following variances: the Department underreported Discretionary Fund
expenditures by $4,670,946, overreported the State/federal shares of matching fund expenditures
by $275,258 and $132,430 respectively, and overreported level of effort expenditures by
$929,053. Although the amounts reported were in error, the Department satisfied level of effort
and matching requirements.

In addition, the Department reported transfers to the Child Care Development Block Grant
(CCDBG) from the Temporary Assistance to Needy Families (TANF) program that are
inconsistent with amounts reported on the TANF federal financial reports as having been
transferred. For the audit period, the Department reported that TANF transferred $1.4 million to
the CCDBG program. For the same period, the Department reported that CCDBG received $3
million, or $1.6 million more then the TANF report indicated.

Recommendation:

To ensure accurate financial reporting, we recommend that the Department of Human Services:

1. maintain records in accordance with the Office of Management and Budget Common Rule
   standards for financial management systems to clearly support the reported financial
   information,
2. reconcile quarterly reports of cumulative expenditure and transfer amounts to the accounting
   records, and
3. create a record to support transfers from the TANF program by using revenue transfer
   journals.


Auditee Response/Corrective Action Plan:

Contract Person: Patricia V. Shaw, 287-1855
                 Carol Bean, 287-1869

The Department is working to correct reports to bring them in balance with each grant.
The Department will maintain supporting documentation for all TANF revenue transfer journals.



(01-23) Bureau of Child and Family Services


Child Care Development Block Grant
CFDA#: 93.575 & 93.596                                            Questioned Cost: $82,730
                                                                                Attachment B
                                                                                Page 6 of 20


                         Department of Human Services
U.S. Department of Health and Human Services
Federal Award Number: G001MECCDF


Finding: Unallowable payroll costs (Prior Year Finding)

The Department of Human Services charged the Child Care Development Block Grant program
with payroll costs of three employees who performed administrative duties involving several
federal and/or state programs. The Office of Management and Budget Circular A-87, Cost
Principles for State, Local, and Indian Tribal Governments, allows costs to be charged to a
federal program only to the extent that benefits are received.

We question the amount of payroll costs for these employees that represents work benefiting
other programs.

Recommendation:

We recommend that the Department develop procedures to ensure that salaries and fringe
benefits are allocated to programs based on benefits received:

Auditee Response/Corrective Action Plan:

The Department of Human Services has not yet provided a written response to the finding.

(01-24) Bureau of Child and Family Services


Foster Care Title IV-E
CFDA#: 93.658                        Questioned Cost: $65,203

U.S. Department of Health and Human Services
Federal Award Number: 01ME1401

Finding: Costs claimed more than once

The Department of Human Services reported and was reimbursed for the same expenditures
twice. The Department uses certain accounting codes to report Foster Care expenditures in the
State's accounting system, MFASIS. In addition to these accounting codes, the Department
obtains reports from the Maine Automated Child Welfare Information System (MACWIS) of
other qualifying expenditures initially charged to other accounts. The Department submits both
the direct charges and other amounts reported as program expenditures for reimbursement.
                                                                                   Attachment B
                                                                                   Page 7 of 20


                          Department of Human Services
Other charges reported included expenditures for transportation and daycare. The Department
submitted these qualifying expenditures both on the Title IV-E Gap report (amounts originally
paid from the General Fund coded to appropriation organization 0139 - Child Welfare) and on
the transportation and daycare reimbursable reports. We tested expenditures claimed for ten
children and found all ten on both reports. Known questioned costs for the ten are $3,171. Likely
questioned costs, the remainder of the expenditures coded to the account, are $627,111.

We also found that the transportation and daycare expenditure totals included both Federal
Expenditure Fund and General Fund Foster Care direct charge accounts (appropriation
organization 0137). Because these accounts are already included in the MFASIS reported
expenditures, including them in the MACWIS report means that they also were reported twice.
Our testing of these accounts identified $62,032 in known questioned costs and $18,430 in likely
questioned costs. The total known questioned costs are $65,203 ($3,171 and $62,032) and likely
questioned costs are $645,541 ($627,111 and $18,430.)

The Department has experienced considerable personnel turnover. The MACWIS computer
system is relatively new. The personnel involved in program administration and financial
reporting do not have a complete understanding. of how the program is funded and where
information is reported. These two factors, in conjunction with the use of the accounting system
to capture information but not actually posting activity to the accounts that ultimately absorb the
cost, makes program reporting prone to errors.

Recommendation:

We recommend that the Department document its accounting procedures. It should identify
which funds and accounts are used and for what. One individual should review all sources of
information used to report program activity to ensure that program expenditures are not reported
more than once and that federal reimbursement is requested only once.


Auditee Response/Corrective Action Plan:

Contact Person: Patricia Y. Shaw, 287-1855

This was identified and corrected on the 12/31/01 and 3/31/02 reports. An individual in BCFS
checks each report before being submitted to Financial Services to be used as reporting
information.
                                                                                Attachment B
                                                                                Page 8 of 20


                           Department of Human Services
U.S. Department of Health and Human Services
Federal Award Number: OIME1401


Finding: Inadequate suspension and debarment procedures

The Department of Human Services, the Division of Technology Services, had no established
policies and procedures to ensure compliance with suspension and debarment requirements for
contracts related to the Foster Care Program. Title 45 CFR Part 76.200 and the Compliance
Supplement of OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations, prohibit non-federal organizations from contracting with parties that are
suspended or debarred. Contractors receiving awards of $100,000 or more must certify that the
organization and its principals are not suspended or debarred.

Of the two contracts subject to the suspension and debarment requirements, we found that
neither of them contained the required suspension and debarment certification. Payment for the
two contracts totaled $2,403,417, or 87% of the amount of contract expenditures for the fiscal
year.


Recommendation:

We recommend that the Division require all contractors who are awarded $100,000 or more to
certify that the organization and its principals are not suspended or debarred. We further
recommend that an internal control system be developed to provide reasonable assurance that
computer technology contracts are in compliance with federal suspension and debarment
requirements.


Auditee Response/Corrective Action Plan:

Contact Person: Joseph Radziszewski, 287-1748

The Division of Technology Services will require that all contracts over $100,000 add a
suspension & disbarment requirement certifying that the organization and its principals are not
suspended or debarred.


(01-28) Bureau of Child and Family Services

Foster Care - Title IV-E
CFDA#: 93.658                                             Questioned Cost: $37,179
                                                                                  Attachment B
                                                                                  Page 9 of 20


                          Department of Human Services
Federal Award Number: Various


Finding: Costs reported in excess of allowed federal share

The Department of Human Services reported as federal costs $10,614 that should have been
reported as the State's share. The Office of Management and Budget Circular A-87, Cost
Principles for State, Local, and Indian Tribal Governments, states that costs must be allocable in
order to be charged to a federal program.


Recommendation:

We recommend that the Department adjust .the incorrectly reported costs, and use due care when
compiling program activity.


Auditee Response/Corrective Action Plan:

Contact Person: Carol Bean, 287-1869

The Department of Human Services concurs with the above finding. The department has revised
the reported federal amount on the SF-269 to reflect. the, appropriate recipients share of
expenditures. The revision has been made to 3-31-01 Review and Modification SF-269.



(01-36) Bureau of Family Independence
        Division of Support Enforcement and Recovery
        Division of Financial Services

Child Support Enforcement
CFDA#: 93.563                                                Questioned Cost: None

U.S. Department of Health and Human Services
Federal Award Number: Various

Finding: Inadequate controls and procedures to ensure complete and accurate reporting for the
Schedule of Expenditures of Federal Awards

The Department of Human Services initially reported $11,002,519 in federal Child Support
Enforcement program expenditures to be included in the Schedule of Expenditures of Federal
Awards (SEFA). The actual SEFA expenditures were $1.4 million higher, or $12,419,688.
                                                                               Attachment B
                                                                               Page 10 of 20


                         Department of Human Services
Adjustments were necessary to delete funds passed through to and expended by other agencies,
to add expenditures paid from program income and to reflect a federal audit adjustment.

The Office of Management and Budget Circular A; 133, Audits of States, Local Governments,
and Non-Profit Organizations, requires that auditees prepare appropriate financial statements,
including the Schedule of Expenditures of Federal Awards; entities should also be able to
provide reasonable assurance that financial statements are reliable.


Recommendation:

We recommend that Department of Human Services personnel develop controls to ensure
accurate reporting for the .Schedule of Expenditures of Federal Awards.

Auditee Response/Corrective Action Plan:

Contract Person: Carol Bean, 287-1869

The Department of Human Services concurs with the above finding. The department reports
federal interest earned on Child Support Collections. DHS did not add back in the interest
income when preparing the Schedule of Expenditures of Federal Awards. This oversight caused
the federal Child Support Administrative expenditures to be understated by the amount of
interest income earned. The adjustment has been posted to the 2001 SEFA.



(01-37) Bureau of Family Independence
         Division of Support Enforcement and Recovery
         Division of Financial Services

Child Support Enforcement
CFDA#: 93.563                                             Questioned Cost: $73,448

U.S. Department of Health and Human Services
Federal Award Number: Various

Finding: : Inadequate controls and procedures to ensure that only program-related payroll costs
are charged to the program
                                                                               Attachment B
                                                                               Page 11 of 20


                         Department of Human Services
From the perspective of the Department of Human Services, DHS should routinely transfer cash
in support of budgeted transfers to the Office of the Attorney General based on the projected
Legal Services Cost Allocation Schedule. When DHS transfers cash to The Office of the Attorney
General they do not know the specific funding source because the source of funds transferred is
determined by DHS Therefore, to reflect accurately the fiends transferred, DHS will supply the
source of funds to the Office of the Attorney General's and ensure transfers come from all
Programs and not mainly Child Support Enforcement.


(01-40) Bureau of Health


Supplemental Food Program for Women, Infants and Children
CFDA#: 10.557                                                    Questioned Cost: None

U.S. Department of Agriculture
Federal Program Number: 4ME700701


Finding: Noncompliance with cash management requirements

The Department of Human Services did not minimize the time elapsed between drawdown of
federal funds and the expenditure of those funds for the Supplemental Food Program for
Women, Infants and Children. Most of the program funds are disbursed to program participants
using food instruments, which are redeemed by the Financial Services Management Corporation
(FSMC) on behalf of the State. FSMC had excess State funds on hand. Its average daily cash
balance during the fiscal year was $353,015, while its 3-day average cash needs were $120,041.

Title 31 CFR 205.7 requires that "a State and a Federal agency shall minimize the time elapsing
between the transfer of funds from the United States Treasury and the pay out of funds for
program purposes by a State, whether the transfer occurs before or after the pay out."



Recommendation:

We recommend that the Department minimize federal cash on hand, in compliance with 31 CFR.


Auditee Response/Corrective Action Plan:

Contact Person: Sandra Davidson, 287-1904
                                                                              Attachment B
                                                                              Page 12 of 20


                         Department of Human Services
The cash was drawn down bi-weekly at $310, 000. As of February, 2002 we have been drawing
down $180,000 weekly. We don't draw down when we receive a rebate check because these
checks average about $300,000.00. The WIC Accountant is making sure the average daily cash
on hand is not as high.



(01-41) Bureau of Health



Supplemental Food Program for Women, Infants and Children
CFDA#: 10:557                                                   Questioned Cost: None

U.S. Department of Agriculture
Federal Award Number: 4ME700701


Finding: Schedule of Expenditures of Federal Awards not accurate

The Department of Human Services submitted an inaccurate report of federal expenditures to the
State Controller for inclusion in the Schedule of Expenditures of Federal Awards. Expenditures
reported as $13,946,646 for the Supplemental Food Program for Women, Infants and Children
(WIC) for fiscal year 2001 were overstated by $3,613,742.

The reporting inaccuracies were primarily due to the inclusion of $3,801,805 of rebated food
costs.

Office of Management and Budget Circular No. A-133, Audits of States; Local Governments,
and Non-Profit Organizations, requires entities expending federal awards to be able to provide
reasonable assurance that financial statements are reliable.



Recommendation:

We recommend that WIC program personnel report expenditures net of food rebates.



Auditee Response/Corrective Action Plan:

Contact Person: Ron Bansmer, 287-5342
                                                                                Attachment B
                                                                                Page 13 of 20


                          Department of Human Services
3) adopt procedures for supervisory oversight of the inventory system, and
4) exercise greater care in the preparation of amounts used for the SEFA.


Auditee Response/Corrective Action Plan:

Contact Person: Lisa Tuttle, 287-3746

After a review of the information provided by the auditor, the Maine Immunization Program
concurs with the finding. As this finding was carried forth from a prior year, we have already
began corrective action. Following is our corrective action plan:

Vaccines that are not purchased directly through the federal software system will be recorded on
a separate Vaccine Purchase Tracking Spreadsheet. Vaccine purchases through the federal
software system will be reconciled monthly against the spreadsheet.

The amounts prepared for the SEFA will be reviewed by the Assistant Director of the MIP before
submission to the State's official accounting records. The review will consist of a series of
checks. against documents regarding the purchase of vaccines with federal and non-federal
funds.

A team of MIP staff will meet monthly to discuss the vaccine management issues and make
recommendations for vaccine purchase. During each monthly review, the latest weekly vaccine
inventory will be reviewed and a monthly distribution record will be compared to the Vaccine
Purchase Tracking Spreadsheet.



(01-4) Bureau of Health


Immunization Grants
CFDA#: 93.268                                                     Questioned Cost: None

U.S. Department of Health and Human Services
Federal Award Number: H23/CCH104482-11


Finding: Controls insufficient to ensure compliance with standards for support of salaries and
wages (Prior Year Finding)
                                                                                Attachment B
                                                                                Page 14 of 20


                         Department of Human Services
Five of twenty Immunization Program employees worked on multiple activities or cost
objectives but the distribution of their salaries or wages was supported by budgetary estimates
rather than by personnel activity reports. Office of Management and Budget Circular A-87, Cost
Principles for State, Local, and Indian Tribal Governments, states:

       Where employees work on multiple activities or cost objectives a distribution of
       their salaries or wages will be supported by personnel activity reports or
       equivalent documentation which meets the standards in subsection (5) unless a
       statistical sampling system ...or other substitute system has been approved by the
       cognizant Federal agency.



Recommendation:

We recommend that the Bureau of Health of the Department of Human Services ensure
compliance with requirements for employees who work on multiple activities or cost objectives.


Auditee Response/Corrective Action Plan:

Contact Person: Lisa Tuttle, 287-3746

The Maine Immunization Program concurs with the finding. After exploration into a variety of
tools to address the issues highlighted in the finding, we have decided to use a simple
spreadsheet for employees who work on multiple funding streams to track their percentage of
time across multiple finding streams. This spreadsheet will be put into place by June 1, 2002.


(01-45) Office of Substance Abuse

Substance Abuse Prevention and Treatment Block Grant
CFDA#: 93.959                                                     Questioned Cost: None

U.S. Department of Health and Human Services
Federal Award Number: 99 BI ME SAPT-O1

Finding: Noncompliance with cash management requirements (Prior Year Finding)

The Office of Substance Abuse did not disburse federal funds as required by the provisions of
the State's Cash Management Improvement Act (CMIA) Agreement for the Substance Abuse
Block Grant. Failure to abide by provisions of the Agreement may result in earned interest
having to be paid to the federal government.
                                                                                 Attachment B
                                                                                 Page 15 of 20


                          Department of Human Services
The Department of Human Services did not always comply with the draw down methodologies
outlined for the various federal programs in the CMIA agreement. Occasionally funds were
drawn down as needed (pre-issuance). Federal Obligations were not to be held until the next
scheduled draw down. Plus, staff, who draw down cash and the Account Managers who account
for these federal programs were not aware of the many different draw down methodologies for
each grant. Three things have occurred to correct this sometime during the 1st quarter of FY 02.
l.) A meeting was held with the Financial Services staff responsible for draw downs to go over
the CMIA Agreement and make sure they have an understanding of the different methods. 2.)
Some invoice processing like Adult and Child Care Food Program and WIC obligations are
scheduled on a certain days instead at random. And 3.) 1 meet with the Deputy State Treasurer
annually before the next CMIA Agreement is to be finalized to go over our draw down
methodologies and see if they still fit the cash flow needs of the program and make adjustments
as needed.



(01-48) Division of Financial Services,

CFDA#: Various                                              Questioned Cost: $1,290,881

U.S. Department of Agriculture
U.S. Department of Health and Human Services
Federal Award Number: Various

Finding: Costs charged twice, cost allocation plan errors not detected (Prior Year Finding)

Controls at the Department of Human Services are inadequate to ensure accurate financial
reporting of federal grant award expenditures. The Department included certain expenditures as
both direct program costs and as costs to be allocated through its departmental cost allocation
plan. As a result, the Department overcharged the federal government $1,290,881 and overstated
expenditures by the same amount in State fiscal year 2001. Of the thirteen Federal programs
tested, we identified duplicate charges in the following three programs:

       CFDA #         Program Name                          Amount
       10.561         Food Stamps                          $496,063
       93.658         Foster Care                              4,973
       93.667         Social Services Block Grant            789,845
                                                           $1,29,881
                                                                                   Attachment B
                                                                                   Page 16 of 20


                          Department of Human Services
Additionally, we noted that in a fourth program, Temporary Assistance for Needy Families
(TANF), certain amounts were duplicated when reporting a total of $1,710,096. In September
2001 (the final quarter of federal fiscal year 2001), the problem was identified and corrected
through a reconciliation process. Inconsistent methods for preparing the quarterly TANF
financial reports caused the initial duplications and caused confusion in tracking the expenditures
that were reported.

The Department's cost allocation plan included incorrect rates in a significant cost pool within a
primary allocation schedule for the cost allocation plan. Additionally, another primary schedule
understated one of the allocated cost pools by $1 million, causing another cost pool to be
overstated. These misstated cost pools resulted in some programs being overcharged and others
undercharged. Pertinent financial reports were not always revised to reflect amendments to cost
allocation schedules. In addition, data extracted from the financial accounting system, rather than
from allocation schedules, was sometimes used to complete financial reports. This inconsistency
contributed to inaccurate reporting and the duplicate recording of expenditures. The Department
has experienced staff turnover, which has resulted in a lack of familiarity with the cost allocation
plan.

Recommendation:

We recommend that the Department:
1. document its processes. so staff will have guidance to follow,
2. develop controls to ensure that costs are not reported both as allocated and as direct costs,
3. direct staff to consistently use the same source of information to complete financial reports,
   and
4. revise financial reports as allocation schedules are amended.


Auditee Response/Corrective Action Plan:

Contact Person: John Mower

1. The Division of Financial Services Assistant Director has been tasked to compile a
   Procedures Manual. The Assistant Director will be working with the Division's Account
   Managers to document procedures on how to complete various FSRs and some of the
   reoccurring transactions like journal entries and schedules that have to be done periodically.
   This will be done over time beginning in the 3rd quarter of FY 02.
                                                                                  Attachment B
                                                                                  Page 17 of 20


                          Department of Human Services
2. The issue of picking tip the same costs as a direct and an allocated cost can be attributed to
   new staff and errors when not differentiating between what costs are allocated by cost
   allocation schedules and what are picked tip as direct. The procedures manual listed earlier
   will address this by outlining the difference between the direct and the allocated costs when
   completing the FSR. Also the new staff member, who oversees the cost allocation plan, will
   go over these CAP Schedules with each Account Manager so they all have a better
   understanding of where the figures originate from and make sure other costs are not double
   counted. This is scheduled to occur over the last two quarters of CY 2002.

3. The Account Managers have been re-educated to the fact that they have to use the costs from
   MFASIS, the state's accounting system for reporting requirements unless otherwise specified.
   Either the standard computer generated report or a GQL data warehouse query from the
   same source. MFASIS is the official accounting system record of the State.

4. Various accounting staff members compile the cost allocation plan schedules. Occasionally,
   a revision is made to a schedule, and this change is not communicated to the other
   accountants that utilize the schedule. Starting during the 1st quarter of FY 2002 all schedules
   once completed are turned over to the person responsible for CAP. Any changes to schedules
   have to be coordinated by this person who sees the revised schedule is distributed to the
   accountants affected by the change.



(01-49) Community Services Center
        Division of Audit

CFDA#: Various                                              Questioned Cost: None

U.S. Department of Health and Human Services Federal Award Number: Various

Finding: Pass-through responsibilities not met: untimely receipt of corrective action plans and
untimely issuance of management decisions (Prior Year Finding)
                                                                                Attachment B
                                                                                Page 18 of 20


                          Office of the Treasurer of State
(01-59) Office of the Treasurer of State


Various
CFDA#: Various                                                    Questioned Cost: None

U.S. Department of Treasury
Federal Award Number: Various


Finding: Internal controls not adequate to ensure compliance with Cash Management
Improvement Act (Prior Year Finding)

The Office of the Treasurer of State did not satisfy all administrative requirements of the Cash
Management Improvement Act (CMIA). The Office is responsible for administering the Act for
the State of Maine. These responsibilities include negotiating the annual CMIA Agreement
between the State and the U.S. Department of the Treasury, preparing the CMIA Annual Report
and monitoring State agency compliance with CMIA provisions. The Office did not maintain
sufficient contact with agencies responsible for administering programs under the CMIA to allow
the State's assigned CMIA coordinator to monitor compliance, gather data, and communicate
information regarding appropriate and compliant cash management for programs subject to the
agreement.

We noted the following instances of inadequate internal control or of noncompliance:

·   The CMIA coordinator did not periodically review agency cash management records for
    programs with interest-neutral drawdown methods, as required by the CMIA Policy and
    Procedures Manual. The Office did review records relating to pre-issuance funded program
    components.

·   The Departments of Labor, Human Services, Education, Behavioral and Developmental
    Services, Transportation, and Defense, Veterans, and Emergency Management did not
    comply with drawdown procedures outlined in the Treasury State Agreement for certain
    programs included in the Agreement. The Office of the Treasurer did not take action to
    change the drawdown procedures for these departments or to report an interest accrual on all
    instances of premature drawdowns. Interest accruals were calculated only if the drawdowns
    were made on a pre-issuance basis or when reported as exceptions by State agencies.

·   Interest calculations for four programs netted negative cash balances against positive ones,
    resulting in lower than actual reported liabilities.
                                                                                     Attachment B
                                                                                     Page 19 of 20


                           Office of the Treasurer of State
Recommendation:

We recommend that the Office of the Treasurer monitor agencies' compliance with drawdown
methods and ensure that all agencies provide sufficient information to provide an accurate
interest liability calculation. We recommend that the Office continue working towards amending
the Agreement so that for any given drawdown, the specified funding technique is compatible
with the purpose of the draw. We recommend that interest calculations include only periods with
positive cash balances.


Auditee Response/Corrective Action Plan:

Contact Person: Holly Maffei, 624-7477

The Treasurer's Office will take the following steps during FY 2003:

       Due to conflicting responsibilities of the Treasurer's Office, it has been difficult to fulfill
its Coordinator responsibilities effectively. Approval has been obtained to use the direct cost
allowance permitted under CMIA 31 CFR Part 205 to fund a position dedicated to the
coordination of the Treasury-State Agreement (TSA) and to monitor federal drawdown requests.
This position will work with State Agencies to educate and gather a better understanding of the
processes and required documentation pertaining to the receipt of federal finds.

        The CMIA Policy and Procedures Manual recommends spot checks and periodic
examinations of State Agency reports documenting federal drawdown requests in order to
monitor compliance with CMIA. A sampling of such documentation will be scheduled and
requested from State Agencies, which shall include the determination of and the amount of
federal funds drawn, the date funds are requested and credited to the State's bank account, and
the amount and dates of program-related issuance.

        In addition, the Treasurer's Office has expressed a desire to work more closely with the
Department of Audit to understand the issues raised and the procedures used in the audit of
State Agencies. Although sampling may uncover an incidence of noncompliance, the Treasurer's
Office is reliant on an Agency's signed Statement of Compliance or their reporting of refunds
and/or exceptions in the calculation of the liability owed to the federal government.

       At the beginning of FY 2002, The Treasurer's Office began providing a complete copy of
the TSA to each State Agency that is guided by the TSA terms and conditions: The designated
Agency representative is requested to sign acknowledging receipt of the contract, understanding
and agreement to the terms and drawdown methodology cited and agreement to communicate
any changes that would affect the TSA to the Treasurer's Office.
                                                                                     Attachment B
                                                                                     Page 20 of 20


                           Office of the Treasurer of State
         The purpose of the Cash Management Improvement Act is to promote the efficient
transfer of Federal funds between the Federal Government and States. CMIA permits the accrual
of a federal liability to a State when the federal obligational authority is late in transferring
funds to a State that has paid out funds for program purposes and has requested reimbursement
in accordance with the TSA. The State has opted to take the more conservative approach with its
preissuance interest liability and has consistently ignored any instances of overall federal-
liability-to-State in the filing of its Annual Report. In following the format used in previous years,
the Office did include monthly negative cash balances against monthly positive cash balances
within individual federal programs. The Treasurer's Office, in cooperation with the Bureau of
Accounts and Control, has worked to transition State Agencies to interest neutral draw down
techniques in the receipt of federal funds rather than the federal liability-incurring technique of
preissuance. Since most Agencies are transitioning to interest neutral drawdown techniques, this
should not be an issue in the future.
                 Overview of the Office of the Inspector General


                                       Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers' Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations and cash
flow. Performance audits review the economy, efficiency and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency, rather than detecting problems after they occur.

                              Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General
(OIG) by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic
planning function and the development and implementation of performance measures
required by the Government Performance and Results Act. OEO is also responsible for
performing internal reviews to ensure that OIG offices nationwide hold themselves to
the same rigorous standards that we expect from SSA, as well as conducting
investigations of OIG employees, when necessary. Finally, OEO administers OIG’s
public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and
current activities and their results to the Commissioner and Congress.


                                Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
